OIG Investigative Reports, Providence RI., September 21, 2011 - Russian National Convicted in Federal Court of Aggravated Identity Theft, Passport & Wire Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
THE UNITED STATES ATTORNEY'S OFFICE
DISTRICT OF RHODE ISLAND
NEWS
News Release
U.S. Department of Justice
Peter F. Neronha
United States Attorney
District of Rhode Island
September 21, 2011
RUSSIAN NATIONAL CONVICTED IN FEDERAL COURT OF AGGRAVATED IDENTITY THEFT, PASSPORT & WIRE FRAUD
PROVIDENCE, R.I. – A federal jury in Providence today convicted a Russian national of using the identity of a resident of Ireland who holds dual citizenships in the United States and Ireland to fraudulently receive a U.S. passport, social security card, mortgage, and federally subsidized student loans.
United States Attorney Peter F. Neronha announced the conviction of Evgueni Tetioukhine, 43, of Warwick, R.I., on an eight count indictment which charged him with aggravated identity theft; false statements on mortgage and federal student loan applications; false use of a Social Security number; and passport fraud. At sentencing, Tetioukhine faces up to 45 years in prison, plus a mandatory consecutive term of 2 years imprisonment on each of the 3 counts of aggravated identity theft. He is scheduled to be sentenced December 8, 2011, by U.S. District Court Chief Judge Mary M. Lisi.
U.S. Attorney Peter F. Neronha commented, “Every American citizen is entitled to the security of his or her identity.  This defendant stole the identity of someone else and spent the next twenty years using it to his advantage and lying to cover it up.  His lies finally caught up with him today.  I am grateful for the jury’s verdict, as well as for the excellent work of Assistant U.S. Attorneys Richard W. Rose and Ly T. Chin.  I also want to recognize the many law enforcement agents and police officers who worked so hard to secure justice in this case.  They are an outstanding example of what law enforcement in this country is about.”
According to evidence presented at trial, including testimony from the victim, Fionghal S. MacEoghan, of Dublin, Ireland, Warwick Police were contacted in July 2010 after MacEoghan discovered through Facebook and the Internet that his identity and personal information were being used by an individual living in Warwick. Evidence was presented that Tetioukhine began using MacEoghan’s identity one day after a visa allowing him to be in the United States expired in October 1991. Tetioukhine used the information to obtain, among other things, a social security card, a passport, a home mortgage in the amount of $260,000 and a United States Department of Education student loans totaling $14,756.84.
The matter was investigated by the U.S. Department of State, Diplomatic Security Service; ICE - Homeland Security Investigations; U.S. Department of Education; and Warwick Police.
Contact: 401-709-5357
USARI.Media@usdoj.gov
# # # #
Top
Printable view
Last Modified: 11/14/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov